           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


              ACCURACY OF
     TITLE II DISABILITY INSURANCE
          BENEFIT TRIENNIAL
     REDETERMINATIONS FOR 2006

    September 2008   A-04-07-17078




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      September 9, 2008                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Accuracy of Title II Disability Insurance Benefit Triennial Redeterminations for 2006
           (A-04-07-17078)


           OBJECTIVE

           Our objective was to determine the accuracy of Title II triennial redeterminations
           required in 2006.

           BACKGROUND
           The Social Security Administration (SSA) administers the Old-Age, Survivors and
           Disability Insurance program under Title II of the Social Security Act, as amended
           (Act). 1 Section 223 of the Act 2 requires that SSA provide monthly Disability Insurance
           (DI) benefits to individuals who meet specific disability requirements.

           Workers injured on the job may qualify for DI benefits in addition to benefits under
           Federal and State workers’ compensation (WC) programs. However, combined DI and
           WC benefits could result in workers receiving more in disability payments than they
           earned before they became disabled. To prevent this, Congress enacted the WC offset
           provision under section 224 of the Act, 3 which requires that SSA adjust DI benefits
           based on an offset formula set forth in that provision of the Act.

           While SSA adjusts DI benefits based on an offset calculation, to protect DI beneficiaries
           with a continuous WC offset against inflation, SSA is required to re-compute the




           1
               42 U.S.C. §§ 401 and 423.
           2
               42 U.S.C. § 423.
           3
               42 U.S.C. § 424a.
Page 2 - The Commissioner

beneficiary’s average current earnings (ACE) on a triennial basis. 4 This recalculation is
known as a triennial redetermination (REDET). 5 A REDET may result in increased
benefits because the ACE—a component of the offset calculation—is recalculated
using a ratio adjusted for inflation.

Each year, SSA identifies DI cases that qualify for a possible REDET. These cases
become part of SSA’s program service centers’ (PSC) annual workload. According to
SSA policy, when a beneficiary’s DI benefits are in continuous WC offset, a REDET is
required in the third year after offset was first imposed (or reimposed, if there was a
break in offset), and in each third year thereafter. 6 If the completed REDET increases
the individual’s DI benefits, it is effective in January of the REDET year. 7 To illustrate, if
a beneficiary had a continuous monthly WC offset from November 2000 through
February 2006, the beneficiary would be due a REDET in 2003 and again in 2006.
However, if the beneficiary experienced a change in WC benefit amount that caused
the WC offset to end (full DI benefits paid) between June and August 2002, a new
REDET period would be established beginning in August 2002—the month the WC
offset resumed. The beneficiary would not be due a REDET until 2005.

SSA's Office of Systems (Systems) distributes a list of DI claims requiring a REDET to
                                                                                       8
each PSC every year. The PSCs are then responsible for producing a REDET alert
for each claim identified by Systems and loading those alerts into the Processing
Center Action Control System (PCACS). The alerts are stored in PCACS until the PSC
managers release them to staff for processing. Generally, by November of each year,
PSC managers have released all REDET alerts for processing. If a completed REDET
results in more benefits due to a beneficiary, SSA retroactively adjusts benefits to the
beginning of the calendar year and pays the past due benefits.




4
  The Social Security Act § 224(f)(1), 42 U.S.C. § 424a(f)(1) and Program Operations Manual System
(POMS), DI 52001.570.B.1. This POMS provision states that “Each case in which there is an actual
reduction due to WC/PDB [public disability benefit] offset will be recomputed under the redet provision in
the third year following the year offset is imposed (or reimposed, if there was a break in offset) and in each
third year thereafter. However, the first redet may be considered when less than 3 full years have passed.
For example, in the case of any record on which continuous offset began in 1995, regardless of the
month, the worker will be eligible for a redet in 1998.”
5
    POMS, DI 52001.570.
6
    POMS, DI 52001.570.B.1.
7
    POMS, DI 52001.570.B.2.
8
    An alert is an electronic message notifying staff that an action is required on a specific claim.
Page 3 - The Commissioner

SCOPE AND METHODOLOGY
In 2006, SSA identified 36,177 DI claims that required a REDET. As of June 30, 2007,
SSA had completed 21,976 REDETs, from which we selected a random sample of
250 DI claims for review. To determine whether the REDETs were accurate, we

   •   reviewed all available documentation for independent proof of current WC rates,

   •   calculated the WC offset based on the current proven WC benefits data,

   •   compared the total benefits paid to the total benefits owed, and

   •   obtained SSA’s review and comments for each payment error.

For 16 claims, we determined payment errors continued after August 31, 2007. During
our audit, we informed SSA of the errors. SSA agreed to correct the offset calculation
and adjust the DI benefits as needed. These errors would likely have continued had we
not identified them or a significant event occurred that would have caused SSA to
review the claims. Therefore, we estimated the number of claims and the total amount
of the payment error that may have continued for 12 months after our audit period.
Further information regarding our scope and methodology as well as our sampling
methodology is in Appendices C and D.

RESULTS OF REVIEW

SSA did not always accurately process and calculate the 2006 REDETs in our sample.
In total, 24 (9.6 percent) of the 250 sampled DI claims we reviewed had payment errors.
Of the 24 claims, 19 had payment errors totaling $219,610 related to the WC offset
calculation. Based on this error rate, for the 21,976 REDETs in our population, we
estimate approximately 1,670 DI claims totaling about $19.3 million had payment errors
related to the WC offset calculation. The five remaining claims, totaling $53,320, had
DI processing errors unrelated to the WC offset calculation.

Also, 16 of the 24 REDET claims had payment errors that continued after
August 31, 2007. Fourteen of these errors were related to the WC offset calculation,
and the remaining two were unrelated to this calculation. Based on the number of
continuing errors, we estimate that for the 12 months following our audit period,
approximately 1,406 claims had payment errors totaling about $4.8 million.

SSA’s controls for monitoring the accuracy and completion of REDETs could be
improved. Also, Agency personnel did not always document current WC benefits being
paid to the individual under Federal or State WC programs. Specifically, we could not
locate evidence that Agency personnel had obtained verification of current WC benefits
for 81 (32.4 percent) of the 250 sampled REDETs. Such information is necessary to
accurately complete a REDET. At our request, SSA obtained current WC evidence for
Page 4 - The Commissioner

28 of the 81 claims during our audit. 9 However, as of the conclusion of our audit
fieldwork, 53 claims still lacked current WC evidence. Without such evidence, we were
unable to test the accuracy of DI benefits paid after the REDET for these claims.

Further, for 35 of these 53 claims without current WC evidence, we could not find
evidence that SSA completed the REDET. Specifically, for these claims, the Master
                            10
Beneficiary Records (MBR) did not reflect a January 2006 recomputed ACE and were
not annotated to indicate the 2006 REDET was completed. Because we were unable
to determine the payment accuracy for 53 of the 250 sampled claims, we believe the
estimated payment errors may be conservative.

We determined that most of the payment errors resulted from human error. For
example, SSA personnel misinterpreted or incorrectly applied the amount of WC
payments to the offset calculation. Further, in some instances, SSA personnel
calculated the offset amount correctly but made errors when processing the claims. In
a previous report, we recommended that SSA explore all possible avenues, including
legislation, to simplify and automate this process. Based on the continuing payment
error rate and complexity of these claims, we continue to support these
recommendations.

Additionally, SSA could improve its controls over the development and monitoring of the
REDET workload. SSA does not maintain a record of the specific REDETs identified by
Systems that should be processed. SSA also does not ensure that all REDETs are
properly included in each PSC’s annual workload and that PSCs complete the work
they are assigned.

PROCESSING MISTAKES RELATED TO THE WC OFFSET CALCULATION
RESULTED IN PAYMENT ERRORS

We determined 19 (7.6 percent) of the 250 sampled REDET claims had payment errors
related to mistakes in processing the WC offset calculations. The payment errors for
these 19 claims totaled $219,610: 15 errors resulting in $139,310 in underpayments
and 4 errors resulting in $80,299 in overpayments (Table 1). Further, 14 of the
19 payment errors continued past our audit period. For these 14 claims, the monthly
payment errors that continued past August 2007 totaled $4,284 (Table 2).




9
 SSA was able to locate current WC information from various States via their on-line services that was
previously not on file.
10
   SSA establishes an MBR for each DI claimant. The MBR maintains pertinent information needed to
accurately pay benefits to the claimant and all entitled dependents. The information maintained includes
identification data (name, Social Security number, date of birth, address), earnings history, type and date
of disability, monthly DI benefit amounts, and the reason for terminating or suspending benefit payments.
Thus, any change in a claimant’s or dependent’s situation must be reflected on the MBR to ensure its
integrity and the accuracy of benefit payments.
Page 5 - The Commissioner

In general, we determined the payment errors occurred because SSA personnel

     •
                                                                11
         improperly prorated lump sum WC settlements,

     •   incorrectly applied WC rates when performing the WC calculation, and/or

     •   did not apply a REDET.

At the time of our review, SSA was still paying 14 of the 19 claims in error. Ten had
continuing underpayments that ranged from $25 to $696 per month, and four had
continuing overpayments that ranged from $141 to $431 per month. Had we not
identified the payment errors, the beneficiaries would likely have continued to be paid in
error until a significant life event occurred that would have caused SSA to reevaluate
the claims. Table 1 identifies the payment errors directly related to mistakes in
processing the WC offset. Table 2 identifies the payment errors that would have
continued after August 2007.

           Table 1: Processing Errors Related to the WC Offset Calculation
                                               Number              Payment Error Dollars
                                                  of                                    Total
              Error Description                                 Over-     Under-
                                               Payment                                Payment
                                               Errors
                                                      1       Payments  Payments
                                                                                       Errors
     Lump Sum Settlement Input
 1                                                8(5)                 --      $68,183       $68,183
     Incorrectly
     Incorrect WC Data (amount and/or
 2                                                5(4)         $27,672         $17,826       $45,498
     frequency) Applied
 3   REDET Not Performed                          2(1)                 --       $3,060        $3,060
     SSA Did Not Account for a Second
 4                                                1(1)         $48,664                --     $48,664
     WC Claim
     SSA Continued to Impose WC
 5   Offset After the Numberholder’s              1(1)                 --      $14,626       $14,626
     WC Benefits Ceased
     WC Attorney Fee Applied
 6                                                1(1)           $3,963               --      $3,963
     Incorrectly
     WC Offset Imposed Based on
 7                                                1(1)                 --      $35,616       $35,616
     Non-WC Benefits
                                                                                             $219,61
                                     Totals        19          $80,299       $139,311
                                                                                                   0
 1. The numbers in ( ) indicate the number of payment errors that also had a continuing payment error.
 These cases are detailed below in Table 2.




11
  A lump-sum settlement represents all the remaining WC payments due the disabled worker. The
lump-sum award must be prorated to determine the amount and length of time to offset the beneficiary’s
DI benefits.
Page 6 - The Commissioner

        Table 2: Processing Errors Related to the WC Offset Calculation—
                        with Continuing Payment Errors
                                                 Number of      Total Dollar Payment
                                                 Continuing             Error
                  Error Description
                                                  Payment       For September 2007
                                                   Errors
   1   Lump Sum Settlement Input Incorrectly         5                 $1,215
   2   Incorrect WC Data (amount and/or
                                                      4                $1,621
       frequency) Applied
   3   REDET Not Performed                            1                 $135
   4   SSA Did Not Account For a Second WC
                                                      1                 $141
       Claim
   5   SSA Continued To Impose WC Offset
       After the Numberholder’s WC Benefits           1                 $320
       Ceased
   6   WC Attorney Fee Applied Incorrectly            1                 $216
   7   WC Offset Imposed Based On Non-WC
                                                      1                 $636
       Benefits
                                      Totals         14                $4,284

For a period of almost 13 years, SSA overpaid one beneficiary and his three children
$48,664 because personnel incorrectly applied WC data received from the insurance
carrier. In this case, the DI beneficiary was paid on two WC claims concurrently—both
claims were paid on a monthly basis. However, SSA did not include the second WC
claim in the computation. At the time of our review, one of the beneficiary’s children
continued to be overpaid $141 each month. The remaining two children had reached
age 18 and were no longer receiving benefit payments.

In another example, we identified a $12,960 underpayment. The underpayment
occurred because SSA used the incorrect WC rate to prorate the lump-sum settlement.
SSA prorated the beneficiary’s lump-sum settlement using a weekly rate of $249.55.
However, the settlement specified a weekly rate of $71.56. As a result, SSA offset the
DI benefits at a higher rate. The error also caused a continuing monthly underpayment
of $341.

Our previous reviews found similar instances in which staff processed the WC offset
incorrectly, which resulted in payment errors (see Appendix B). Staff is not required to
review previous WC offset computations while processing a REDET. As a result, WC
processing mistakes made before a REDET may not be identified and corrected during
the REDET. For example, when the WC offset involves a lump-sum settlement, staff is
not required to review the lump-sum settlement documentation when processing a
REDET. Instead, staff processes the REDET with information input during the prior
WC offset calculation.
Page 7 - The Commissioner

We understand that interpreting the myriad of State WC benefits data may be difficult
for SSA personnel processing a WC claim. Although most States maintain information
regarding the status of WC claims, detailed settlement and benefit payment information
is usually maintained by the employer’s insurance carrier. The insurance carrier’s WC
information is often only available to SSA in paper record and the format varies by
insurance carrier. Further, obtaining hard copy WC data from a multitude of insurance
carriers can be tedious, and the timely receipt of information depends on the
responsiveness of the insurance carriers. In our November 2006 report, Title II
Disability Insurance Benefits with a Workers’ Compensation Offset (A-04-05-15133), we
recommended that SSA explore alternate methods for obtaining, standardizing and
applying State WC information. Given the complexity of this process and the continuing
payment error rate in claims involving a WC offset, we continue to support these
recommendations and believe that, until such action is taken, payment errors related to
the WC offset will continue to occur.

PROCESSING MISTAKES NOT RELATED TO THE WC OFFSET CALCULATION
RESULTED IN PAYMENT ERRORS

Five of the 250 (2 percent) sampled REDET claims had payment errors unrelated to the
WC offset calculation. The payment errors for the five claims totaled $53,320:
two cases resulting in $19,063 in underpayments and three cases resulting in
$34,257 in overpayments. Of the five payment errors, two continued beyond our audit
period. For these two claims, the monthly payment errors that continued past
August 2007 were $124 and $100.

SSA’s automated systems typically process monthly DI payments. However, when
SSA’s automated or direct input systems cannot completely process an action,
authorized technicians at SSA’s PSCs must manually process the action. For example,
authorized PSC employees may process actions that include initiating payment of DI
benefits, disbursing attorney fees from benefit payments, recording overpayments,
terminating benefits, and updating or correcting information on the MBR (which may
alter the monthly benefit amount).

Some examples of the processing mistakes we identified follow.

•   Benefits paid to the beneficiary did not agree with the amount of benefits due.

•   The attorney fee was paid, but the fee was not offset against the benefit payment
    issued to the beneficiary.

Table 3 details the payment errors caused by processing mistakes that were not related
to the WC offset calculation. Table 4 identifies payment errors unrelated to the WC
offset that continued after August 2007.
Page 8 - The Commissioner

       Table 3: Processing Errors NOT Related to the WC Offset Calculation
                                     Number                   Payment Error Dollars
                                        of                                                Total
           Error Description                          Over-            Under-
                                     Payment                                             Payment
                                      Errors1       Payments          Payments
                                                                                          Errors
     Total Benefits Paid Did
   1 Not Agree with Total               4(1)         $24,068           $19,063           $43,131
     Benefits Owed
       Benefits Not Adjusted for
   2                                    1(1)         $10,189                 $0          $10,189
       Receipt of Attorney Fees
                            Totals        5          $34,257           $19,063           $53,320
   1. The numbers shown in ( ) indicate the number of payment errors that also had a continuing
   payment error. These cases are detailed below in Table 4.

    Table 4: Processing Error NOT Related to the WC Offset Calculation-with
                          Continuing Payment Errors
                                                                            Total Dollar
                                                    Number of
                                                                           Payment Error
                 Error Description                  Continuing
                                                                           For September
                                                  Payment Errors
                                                                                2007
       1 Total Benefits Paid Did Not
                                                          1                       $124
         Agree with Total Benefits Owed
       2 Benefits Not Adjusted for Receipt
                                                          1                       $100
         of Attorney Fees
                                     Totals               2                       $224

We determined SSA underpaid one beneficiary $10,754. We agreed with SSA’s WC
offset calculation. However, when we compared the total benefits paid to the total
benefits owed on the claim, we identified the underpayment error. SSA reviewed the
claim and agreed with our analysis.

In another case, SSA overpaid a beneficiary $10,189. When the DI claim was initially
processed, SSA released all past due benefits directly to the beneficiary. Although
SSA established a reserve for potential attorney fees, none of the reserved amount was
withheld from the initial payment made to the beneficiary. SSA subsequently
determined the beneficiary did not owe attorney fees. However, SSA did not recognize
that the reserved attorney fees were not withheld from the initial payment and released
a second payment to the beneficiary in the amount of the reserve. As a result, the
beneficiary was overpaid $10,189. SSA personnel did not record an overpayment on
the beneficiary’s MBR until we notified the Agency of the mistake.
Page 9 - The Commissioner

CONTROLS FOR PROCESSING REDETS COULD BE IMPROVED

SSA’s controls for monitoring the accuracy and completion of REDETs could be
improved. Also, SSA did not always document proof of current WC rates used to
complete the REDET. Further, we did not find evidence that all REDETs were
completed. Specifically, 81 (32.4 percent) of the 250 sampled DI claims lacked
independent proof of WC rates. However, during our audit, SSA was able to obtain
current WC evidence for 28 of the 81 claims. Accordingly, we used the WC evidence
for the 28 claims to test the accuracy of the REDETs. We were unable to test the
accuracy of the REDETs for the 53 remaining claims that lacked current WC evidence.
Finally, for 35 of these 53 claims, we could not find evidence that SSA completed the
REDET.

REDETs Lacked Documentation of Current WC Verification

For 81 (32.4 percent) of the 250 REDET claims, we found no independent proof of the
current WC benefits. When processing a REDET, staff is required to obtain current
WC evidence, unless the WC evidence on file is younger than 1 year old. 12 The
amount of WC benefits paid by a State or an insurance carrier and whether they are
paid weekly, bi-weekly, or monthly are critical components of the WC offset calculation.
If SSA personnel apply incorrect WC data in the offset calculation, a payment error is
likely to occur.

To assist in controlling their workloads, PSCs use the Paperless Processing Center
System (Paperless), a document imaging and management system. Paperless stores
various types of documents and records—documents that are scanned or faxed into the
system and records that are created in the system (such as staff notes, explanations,
and calculations). Documents that are scanned or faxed into Paperless are
automatically coded for long-term retention and retained for the life of the official claims
folder. Records created in Paperless are automatically assigned short-term retention
status and are only retained for 120 days.

Officials from SSA’s PSCs explained that staff processing REDET claims likely
obtained the current WC evidence as required by policy. However, staff may have
failed to scan or fax the evidence into Paperless. Also, if the independent proof of
current WC rates used in the REDET was a record of contact between staff and the
insurance carrier, staff may have failed to change the documents’ retention status from
short-term to long-term. As a result, the record of contacts providing evidence of the
current WC data would have been purged before our audit. While this may explain why
the WC evidence was missing, we remain concerned that almost 33 percent of our
sample was lacking WC evidence at the time of our audit. We believe management
should improve the controls to ensure SSA staff properly obtain and store WC evidence
in Paperless.


12
     POMS, DI 52001.570.F.2.
Page 10 - The Commissioner

REDETs Lacked Evidence of Completion

For 35 of the 53 (66 percent) REDET claims in which no current WC evidence was
available, we also found no evidence the 2006 REDET was completed. Specifically,
the MBRs for the 35 beneficiaries were not annotated to indicate whether the 2006
REDET was completed. Additionally, the MBRs did not reflect a 2006 recomputed
ACE. When a REDET is completed and does not result in a new (increased) ACE, staff
is required to annotate the MBR to indicate that the REDET was not applicable. If the
REDET resulted in an increased ACE, staff must manually update the MBR with the
new ACE.

SSA’s method for controlling the REDET workload in PCACS only provides negative
assurance the REDET was completed. That is, when the REDET alert is no longer
pending in PCACS, it is presumed to have been completed. 13 Also, because PCACS
does not maintain a history of REDET alerts cleared from the system, PSCs cannot
query PCACS to determine when the alert cleared or which claims originally had an
alert. Finally, PSCs do not develop detailed management information to monitor
whether an individual REDET has been completed. As such, for these 35 REDET
claims, the PSCs could not provide evidence to show when or if the REDETs were
completed.

PSC officials acknowledged that PCACS provides limited information detailing the
completion of REDET claims. However, the officials explained that for each claim, all
REDET information should be maintained in Paperless. That is, any action or
document related to the REDET alert should be stored in Paperless. The officials
acknowledged the completeness of this information depends on staff properly entering
all information into Paperless. Assuming the Paperless information is complete and
accurate, Paperless still only provides a repository for all REDET information, it does
not provide information specific to the REDET workload. For example, management
cannot query Paperless to generate a report identifying completed REDETs, the
completion date, and whether the REDET applied.

To improve control over the processing of REDETs, we believe SSA should develop
information that would enable PSC management to readily review the REDET
workload. For example the information could identify all claims requiring a REDET, the
date in which a REDET was completed, and whether the REDET applied.




13
  None of our sampled REDET claims had an alert pending in PCACS. Therefore, the REDETs were
presumed to have been completed.
Page 11 - The Commissioner

CONTROLS OVER THE REDET WORKLOAD COULD BE IMPROVED

PSCs did not maintain the electronic data file (from Systems) that identified the DI
claims requiring a REDET. Similarly, Systems did not maintain a copy of the REDET
data files sent to each PSC for more than 1 year. As a result, once PSCs complete the
REDET workload and alerts are deleted from PCACS, the population of REDETs for a
particular year is no longer available. For example, when we asked SSA to identify the
2005 REDET workload, neither Systems nor the PSCs could provide the data because
the source data were no longer available. Additionally, we found no standard
procedures or system applications to direct PSCs in creating their REDET alerts.
Rather, each PSC was responsible for creating its own alerts.

We are concerned that SSA did not have adequate information to determine whether
the REDET workload had been properly developed and completed. For example, we
found no evidence that officials from the Office of the Deputy Commissioner for
Operations (Operations) had a record of the specific REDETs identified by Systems or
whether each PSC properly developed the alerts. We believe Operations should
implement controls over the development of the REDET workload to ensure all required
REDETs have been identified and assigned to PSCs for processing. For example,
Operations should maintain a record of all REDET claims identified by Systems and
verify that each PSC properly included all REDETs in its annual workload.

CONCLUSION AND RECOMMENDATIONS

SSA did not always accurately process the 2006 REDETs. We found 24 (9.6 percent)
of the 250 sampled DI claims had payment errors totaling $272,930. Most of the errors
were related to the WC offset calculation. Also, many claims lacked evidence of current
WC rates, which is needed to complete the REDET calculations. Specifically,
81 (32.4 percent) of the 250 DI claims lacked proof of current WC rates. Although SSA
obtained current WC documentation for 28 of these claims at our request, we could not
test the accuracy of the REDET for the 53 remaining claims. Additionally, we did not
find evidence that SSA completed 35 of these 53 REDETs.

SSA’s controls for processing REDETs should be improved to ensure proof of current
WC rates are documented and records are properly updated to reflect the action
resulting from the completed REDET. Moreover, SSA’s controls over the development
of the REDET workload could be improved to ensure all REDETs have been identified,
assigned to PSCs for processing and completed.

Paying correct benefit amounts to injured workers is one of SSA’s most important
responsibilities. Accordingly, we remain concerned about the extent of payment errors
identified during our review. In a November 2006 report, Title II Disability Insurance
Benefits with a Workers’ Compensation Offset (A-04-05-15133), we made three
recommendations to help SSA improve the accuracy of the WC offset calculation. SSA
indicated it would support legislation to simplify the WC offset calculation, work with
States to standardize the format in which WC data is reported, and explore data
Page 12 - The Commissioner

exchanges with States that maintain automated WC databases. We continue to
support these recommendations and believe that, until such corrective actions are
implemented, significant payment errors will continue to occur in WC offset cases. In
its response to a draft of this report, the Agency provided a technical comment stating
that “SSA continues to support these prior recommendations concerning the
improvement of the overall accuracy of the WC offset computation. Further, a
legislative proposal to simplify the WC offset computation is included in the President’s
Fiscal Year 2009 Budget.”

Specific to the REDET workload, we recommend that SSA:

1. Issue a reminder to staff that all independent proof of current WC benefits be
   documented.

2. Improve controls for monitoring the REDET process. For example, develop
   management information that includes the total number of annual REDETs, how
   many were completed, when they were completed, and the actions resulting from
   the REDET.

AGENCY COMMENTS
SSA agreed with our recommendations and stated that it had already implemented
several initiatives to address problems identified in the processing of these highly error
prone cases. For example, in response to Recommendation 1, SSA stated that it had
changed the procedures to require retention of WC evidence in image format, as of
September 2007 (after our audit period.) However, the Agency took exception to a
statement included in a draft of this report in which we concluded that SSA policy prior
to that date required retention of WC verification documentation. In its response, SSA
provided an alternate policy, which was contradictory to the one we cited. As such,
SSA stated that, during the audit period, personnel were appropriately following
procedures.

OIG RESPONSE
We applaud the Agency’s efforts to address vulnerabilities identified in processing WC
offset cases—and, the REDET workload. We agree with SSA that it had two
contradictory policies in place during our audit period, causing confusion as to whether
personnel were required to maintain WC verification documentation. We acknowledge
that subsequent to our audit period, the Agency alleviated this contradictory policy by
mandating that WC evidence be documented. As such, we revised the report
accordingly.



                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Prior Audit Reports
APPENDIX C – Scope and Methodology
APPENDIX D – Sampling Methodology and Results
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
ACE          Average Current Earnings
DI           Disability Insurance
MBR          Master Beneficiary Record
OIG          Office of the Inspector General
Operations   Office of the Deputy Commissioner of Operations
Paperless    Paperless Processing Center System
PCACS        Processing Center Action Control System
POMS         Program Operations Manual System
PSC          Program Service Center
REDET        Triennial Redetermination
SSA          Social Security Administration
Systems      Office of Systems
U.S.C.       United States Code
WC           Workers’ Compensation
                                                                         Appendix B

Prior Audit Reports
         Social Security Administration, Office of the Inspector General
 Reports Related to Payment Accuracy in Disability Insurance Claims Involving
                        Workers’ Compensation Offsets
  Common
                                                                      Date
Identification                   Report Title
                                                                     Issued
   Number
                Effects of State Awarded Workers’ Compensation
A-04-96-61013                                                            September 1998
                Payments on Social Security Benefits
                The Social Security Administration Incorrectly Paid
A-04-98-62001   Attorney Fees on Disability Income Cases When              March 2000
                Workers’ Compensation Payments Were Involved
                The Social Security Administration’s Workers’
A-06-03-13022                                                              April 2003
                Compensation Data Match with the State of Texas
                Pending Workers’ Compensation: The Social
A-08-02-12064   Security Administration Can Prevent Millions in            June 2003
                Title II Disability Overpayments
                Title II Disability Insurance Benefits with Workers’
A-04-02-21054   Compensation Underpayment Errors Exceeding                 July 2003
                $70,000
                The Social Security Administration’s Clean-up of
A-04-03-13042   Title II Disability Insurance Cases with a Workers’       October 2004
                Compensation Offset
                The Social Security Administration’s Match of
A-06-05-15024   Disability Insurance Records with Texas Workers’          August 2005
                Compensation Payment Data
                Follow-up of Pending Workers’ Compensation: The
A-08-05-25132   Social Security Administration Can Prevent Millions      September 2005
                in Title II Disability Overpayments
                Payments Resulting from Disability Insurance
                Actions Processed via the Social Security
A-04-05-15042                                                              April 2006
                Administration’s Manual Adjustment, Credit and
                Award Processes
                Implementation of Workers’ Compensation in Title II
A-14-06-16049                                                              June 2006
                Redesign Release 3
                Title II Disability Insurance Benefits with a Workers'
A-04-05-15133                                                            November 2006
                Compensation Offset
                                                                   Appendix C

Scope and Methodology
We reviewed a random sample of 250 Disability Insurance (DI) claims from a
population of 21,976 claims in which a Triennial Redetermination (REDET) had been
completed as of June 30, 2007. In January 2006, the Social Security Administration
(SSA) identified 36,177 DI claims that required a REDET. However, as of
June 30, 2007, SSA records indicated only 21,976 REDETs had been completed. Our
audit only reviewed the completed REDETs.

To accomplish our audit objective, we:

•   Interviewed SSA personnel regarding how REDETs are identified, controlled, and
    processed.

•   Reviewed relevant laws and SSA’s policies and procedures.

•   Reviewed previous reports pertaining to DI claims with a Workers’ Compensation
    (WC) offset.

•   Queried SSA’s Master Beneficiary Record and Retirement, Survivors, and Disability
    Insurance Payment History and Worksheet.

For each of the 250 sampled claims, we:

•   Obtained SSA’s DI case folder and documents maintained in the Paperless
    Processing Center System and reviewed all relevant documents related to the WC
    offset.

•   Requested SSA obtain WC verification for those claims that lacked current WC and
    for which SSA had online access to State WC data.

•   Completed SSA’s Interactive Comps Facility screen to calculate the WC offset and
    resulting DI benefits.

•   Forwarded all material payment error claims to SSA for review and comment.

We did not attempt to perform the WC re-compute tests on the 53 cases that lacked
current WC verification.




                                          C-1
The SSA entities reviewed were the Offices of the Deputy Commissioners for
Retirement and Disability Policy and Operations. The electronic data used for this audit
were sufficiently reliable to meet our audit objective. Our tests of internal controls were
limited to gaining an understanding of the laws, regulations and policies that govern the
processing of DI claims with a WC offset and performing the audit steps identified
above. We conducted our audit from July 2007 to April 2008 in Atlanta, Georgia. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards required that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                            C-2
                                                                       Appendix D

Sampling Methodology and Results
Sampling Methodology

We reviewed a random sample of 250 Disability Insurance (DI) claims from a
population of 21,976 DI claims with a Workers’ Compensation (WC) offset in which the
Social Security Administration’s (SSA) records indicated a Triennial Redetermination
(REDET) had been completed as of June 30, 2007.

We made all projections at the 90-percent confidence level.
Sampling Results
REDET Claims Had Payment Errors Related to the WC Offset Calculation

    REDET Claims with Payment Errors Related to the WC Offset Calculation
                       Attribute Appraisal Projections
 Population and Sample Data                                        Number of Claims
 Total Population                                                                 21,976
 Sample Size                                                                        250
 Payment Errors                                                                       19
 Projection to Population                                          Number of Claims
 Lower Limit                                                                       1,109
 Point Estimate                                                                    1,670
 Upper Limit                                                                       2,402

                             Variable Appraisal Projections
 Population and Sample Data                                      Dollar Value of Claims
 Total REDET Claims With Payment Errors Related to a WC Offset                  $219,610

 Projection to Population                                        Dollar Value of Claims
 Lower Limit                                                                  $8,597,510
 Point Estimate                                                              $19,304,580
 Upper Limit                                                                 $30,011,650




                                              D-1
Estimation of REDET Claims with Continuing Payment Errors

We determined that 16 claims had payment errors that continued after
August 31, 2007. We believe the payment errors would have likely continued had we
not identified them or a significant event occurred that would have caused SSA to
review the cases. Therefore, we conservatively estimated the payment errors would
have continued, on average, for at least 12 months after our audit period. Our estimate
was based on two factors:

1. the attribute point estimate of claims with a payment error that continued as of
   September 2007, and

2. the total case dollar payment error that continued for the following 12-month period.

                            Projections of Attribute Appraisals:
                    REDET Cases with Continuing Payment Errors
                              Attribute Appraisal Projections
 Population and Sample Data                                             # of Cases
 Total Population                                                                 21,976
 Sample Size                                                                           250
 Cases With a Continuing Payment Error                                                  16
 Projection to Population                                               # of Cases
 Lower Limit                                                                           894
 Point Estimate                                                                       1,406
 Upper Limit                                                                          2,096




         1-Year Estimate — REDET Cases with Continuing Payment Errors
 Number of Cases with a Continuing Payment Error                                        16
 Continuing Payment Errors for 16 Cases as of September 2007                      $4,508
 Estimate of Cases With a Continuing Payment Error in the Population                  1,406
 Estimated Continuing Payment Error for September 2007                          $396,141
 Estimated Continuing Payment Error for the Following 12-Month Period         $4,753,686




                                                D-2
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      August 22, 2008                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster        /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Accuracy of Title II Disability Insurance
           Benefit Triennial Redeterminations for 2006” (A-04-07-17078)—INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations is attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “ACCURACY OF TITLE II DISABILITY INSURANCE BENEFIT
TRIENNNIAL REDETERMINATIONS FOR 2006” (A-04-07-17078)

Thank you for the opportunity to review and comment on the draft report. We made a
commitment to improve the quality of processing actions involving Workers’
Compensation (WC) and/or Public Disability Offset. Prior to the beginning of this audit,
plans were already underway to implement several initiatives to improve the quality of
these cases.

We concur with both recommendations and our responses to them are as follows:

Recommendation 1

Issue a reminder to staff that all independent proof of current WC benefits be
documented.

Comment

We agree. The Program Service Centers (PSC) have implemented several initiatives that
have been completed or ongoing since 2006 to address the problems identified
concerning the processing of these highly error prone WC cases. In late January 2007,
the PSCs completed WC refresher training for all claims authorizers. WC verification
and maintaining proof was a major topic covered in this training.

As discussed during the exit conference on July 17, 2008, during the period of this audit,
technicians were not required to retain evidence of WC/ Public Disability Benefits (PDB).
We changed the procedures to require retention of WC/PDB evidence in image format in
September 2007, after the audit period. Therefore the statement on page 4 that “contrary
to SSA policy in effect when the REDETS were performed, agency personnel did not
always document current WC benefits being paid to the individual under Federal or State
WC programs” is incorrect. The process in place during the time of the audit is described
in GN 00301.286D.4.a. as follows: “Do not use EVID to record WC/PDB proofs. The
Interactive Computation Facility (ICF) software creates a sufficient audit trail for
evidence of WC/PDB via the WC/PDB database.” Footnote 10, which you changed from
a Region IX-only reference (DI SF52001.150A) in the discussion draft, to a nationwide
provision (DI 52001.150B.1.c.) in the current draft, is still not correct and was not in
place at the time of the audit. During the audit period, personnel were appropriately
following procedures, as described above.

Recommendation 2

Improve controls for monitoring the triennial redetermination (REDET) process. For
example, develop management information that includes the total number of annual
REDETSs, how many were completed, when they were completed, and the actions
resulting from the REDET.

                                           E-2
Comment

We agree. The PSCs made a commitment to conduct quality reviews of 20 percent of the
REDET workload, which resulted in significant (12.78 percent) improvement in the
accuracy of these cases. To date, we completed 11,274 quality case reviews using the
national WC Quality Today web application. This provides a mechanism for PSC1-8
team leaders to conduct uniform weekly random and targeted reviews of cases involving
WC/PDB offset. WC quality teams were one of many PSC initiatives aimed at
improving accuracy of the WC/PDB workloads; others include PSC refresher WC/PDB
training completed in February 2007, the launch of the ICF Resource Page in August
2007, and the upcoming national WC/PDB Resource Page and WC POMS rewrite.
These initiatives also addressed the evidence retention issues noted by OIG, with clear
procedures now in place to ensure WC/PDB evidence is properly retained in our records.

Our Operations and Systems components will continue to work together to further
improve controls for monitoring the REDET process.



[In addition to the information listed above, SSA also provided technical
comments which have been addressed, where appropriate, in this report.]




                                          E-3
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Audit Director, (205) 801-1650

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   Shane Henley, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-07-17078.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
